                DEPARTMENT OF HOMELAND SECURITY
                                  Office of Inspector General
                               Dallas Field Office – Audit Division
                                  3900 Karina Street, Room 224
                                       Denton, Texas 76208

                                         December 11, 2003

MEMORANDUM

TO:            Edward G. Buikema, Regional Director
               FEMA Region V



FROM:          Tonda L. Hadley, Field Office Director

SUBJECT:    Grant Management: Indiana’s Compliance
             With Disaster Assistance Program’s Requirements
            Audit Report Number DD-06-04
___________________________________________________________________________

This memorandum transmits the results of the subject audit performed by Soza & Company,
Ltd., an independent accounting firm under contract with the Office of Inspector General. In
summary, Soza &Company determined that Indiana’s State Emergency Management agency
(SEMA) could improve certain financial and program management procedures associated
with the administration of disaster assistance funds.

On October 28, 2003, you responded to the draft audit report, stating that you agreed with the
majority of the nine recommendations included in the report. The attached report includes
your response, in its entirety, as Attachment B. Your comments are also paraphrased and
presented after each finding in the report, along with additional comments from the auditors.

The actions described in your response were sufficient to resolve and close Recommendation
A.1.1. Your response did not adequately address the condition cited for Recommendation
B.1.2. The remaining seven recommendations (A.1.2, A.2, B.1.1, B.2, B.3.1, B.3.2, and
B.3.3) cannot be resolved until you provide target completion dates for the planned actions.

Please advise this office by January 12, 2004, of actions taken or planned to implement
Recommendation B.1.2. Any planned actions should include target completion dates. Also,
please provide target completion dates for planned actions related to Recommendations
A.1.2, A.2, B.1.1, B.2, B.3.1, B.3.2, and B.3.3

We would like to thank your staff and the MSP-EMD staff for the courtesies extended to the
auditors during their fieldwork. Should you have any questions concerning this report, please
contact Paige Hamrick or me at (940) 891-8900.
Table of Contents                                                       Page

I.     Executive Summary                                                 4

II.    Introduction                                                      5

III.   Objectives, Scope, and Methodology                                8

IV.    Findings and Recommendations                                      10

       A.    Program Management                                          10

             1.       Grant Award Activity                               10
             2.       State Administrative Plans                         12

       B.    Financial Management                                        14

             1.       Financial Reporting of Program Status              14
             2.       Management Grants and Administrative Allowances    16
             3.       Controls Over Assets                               18

V.     Attachments

       A.    Schedules of Sources and Applications of Funds

       B.    Management Comments
FEMA                                                       State Emergency Management Agency
                                                                              State of Indiana


I.     EXECUTIVE SUMMARY

Soza & Company, Ltd. completed an audit of the administration of disaster assistance grant
programs by the Indiana State Emergency Management Agency (SEMA). The objectives
of this audit were to determine if SEMA administered the Federal Emergency Management
Agency (FEMA) Disaster Assistance Grant Programs in accordance with the Robert T.
Stafford Act and appropriate Federal regulations; properly accounted for and expended the
FEMA disaster assistance funds; and operated and functioned appropriately to fulfill its
administrative, fiscal, and program responsibilities. This report focuses on the systems and
procedures within SEMA for assuring that grant funds were managed, controlled, and
expended in accordance with the Robert T. Stafford Disaster Relief and Emergency
Assistance Act (as amended) and the requirements set forth in Chapter 44 of the Code of
Federal Regulations, Emergency Management and Assistance, (44 CFR). The Federal share
of the funds obligated and expended for each of the disasters included in the audit scope are
presented in Attachment A of this report.
Our audit included seven major disasters declared by the President of the United States and
one emergency declaration between June 4, 1990, and January 24, 2001, that were
financially open at September 30, 2001. The following provides an outline of which
programs had been implemented within each of the eight disasters:

     DISASTER        DECLARATION               TYPE OF                                PROGRAMS
     No.             DATE1                     DISASTER                               IMPLEMENTED
                                               Severe Storms, Flooding, and
     869             June 4, 1990                                                     PA, IFG, and HM
                                               Tornadoes
     899             March 29, 1991            Severe Winter Storms                   PA and HM
     1002            September 9, 1993         Severe Storms and Flooding             IFG
     1125            July 3, 1996              Severe Storms and Flooding             PA, IFG, and HM
     1165            March 6, 1997             Severe Storms and Flooding             PA, IFG, and HM
     1217            May 8, 1998               Severe Winter Storms                   PA and HM
                                               Severe Storms, Flooding, and
     1234            July 22, 1998                                                    PA and HM
                                               Tornadoes
     EM-3162         January 24, 2001          Snow Emergency                         PA

In accordance with our agreement with the Federal Emergency Management Agency –
Office of Inspector General (FEMA – OIG), our audit focused on SEMA’s program and
financial management procedures and practices. During the audit, we emphasized the need
to identify the causes of each reportable condition. In addition, we have also made
recommendations that, if implemented properly, would improve SEMA’s management,
eliminate or reduce weaknesses in internal controls, and correct noncompliance situations.
The findings reported below are discussed in the body of the report.
In view of the nature and significance of the findings, we concluded that Indiana’s State
Emergency Management Agency (SEMA) did not comply, in all material respects, with

1
 Disaster Nos. 869 and 899 involved litigation. As a result, these disasters were financially open as of
September 30, 2001.
                                                                                                     4
FEMA                                            State Emergency Management Agency
                                                                   State of Indiana

applicable laws and regulations relative to the findings. Accordingly, we conclude that
management and financial controls could be improved to better protect assets and prevent
or detect errors and fraud.

Program Management

   1. For the Individual and Family Grant (IFG) Program, SEMA did not complete grant
      award activity within 180 days of the disaster declaration or submit the final reports
      to FEMA Region V within 90 days of the completion of the grant award activity.
   2. SEMA’s administrative plans for the IFG and Hazard Mitigation (HM) programs
      referred to complying with the Single Audit Act of 1984 instead of the Single Audit
      Act of 1996.
Financial Management

   1. SEMA has not implemented a consistent methodology to prepare the Form 20-10,
      Financial Status Report.
   2. SEMA does not track the management grants and administrative allowances in
      accordance with applicable regulations.
   3. SEMA does not have adequate controls and procedures in place surrounding the
      following: physical asset verifications, separation of duties between asset
      purchasing and inventory reconciliation, and access to the SMARTLINK system.
Where applicable, we have considered the views of SEMA and FEMA Region V officials
when writing this report. The full comments from the FEMA regional office are attached to
this report (Attachment B).

II. Introduction

   State agencies are the first to respond, once a disaster has occurred. However,
   depending on the size and severity of the disaster, the State’s Governor may request the
   President of the United States to declare a major disaster; which would make relief
   grants available through the Federal Emergency Management Agency (FEMA). After
   the President declares the disaster, FEMA provides financial assistance, through a
   designated agency within the affected State, by implementing one or more grant
   programs.

   Indiana’s State Emergency Management Agency (SEMA) is Indiana’s lead agency for
   the coordination of emergency management programs and response measures. Its
   mission is fourfold: to prepare the citizens of the State of Indiana with the knowledge
   and expertise necessary before a disaster strikes; to respond during a disaster; to assist
   with recovery efforts after a disaster; and to mitigate by taking the necessary steps to
   prevent or lessen the effects of a disaster before and after one occurs. SEMA is the
   State of Indiana’s designated agency that is responsible for allocating and disbursing
   funds received under FEMA’s grant programs.

                                 Soza & Company, Ltd.                                      5
FEMA                                                                      State Emergency Management Agency
                                                                                             State of Indiana

        SEMA is comprised of two divisions, Emergency Management and Emergency
        Medical Services. The Emergency Management Division is responsible for managing
        FEMA’s grant programs within the State and responding to disasters as they occur. The
        Emergency Medical Services Division is part of Indiana’s pre-hospital emergency care
        system that responds to medical emergencies as necessary.

        The Robert T. Stafford Relief and Emergency Assistance Act, as amended, governs
        disasters declared by the President of the United States. Following a major disaster
        declaration, the Act authorizes FEMA to provide various forms of disaster relief to the
        State as the grantee; and to State agencies, local governments, eligible private nonprofit
        organizations, Indian Tribes, and Alaska Native Villages, as subgrantees. On October
        20, 2000, the President signed the Stafford Act amendments into law (Public Law 106-
        390). These amendments are effective only for disasters declared after October 2000. In
        addition, Title 44, Code of Federal Regulations (CFR), Emergency Management and
        Assistance, provides further guidance as to the requirements for the implementation,
        administration, and management of disaster relief grants.

        Our audit concentrated on SEMA’s Emergency Management Division’s use,
        management, and reporting of FEMA program funds received under the Public
        Assistance (PA), Individual and Family Grant (IFG), and Hazard Mitigation (HM)
        programs. Three permanent employees managed these programs on a daily basis, and
        other SEMA employees assisted them in carrying out their functions during active and
        inactive disasters.

        Public Assistance Grants:
        The Public Assistance (PA) grants are awarded for the repair and replacement of
        facilities, removal of debris, and the implementation of emergency protective measures
        necessary after a disaster occurs. In order for a subgrantee to receive funds through the
        PA grant, a designated representative of the subgrantee must complete FEMA Form 90-
        49, Request for Public Assistance. FEMA and SEMA personnel will review the Request
        for Public Assistance and determine if the subgrantee is eligible to receive funds under
        the PA grant program. If the subgrantee is eligible, FEMA will assign a Public
        Assistance Coordinator (PAC) to the subgrantee, who serves as the subgrantee’s
        customer service representative and will be responsible for managing the subgrantee’s
        projects. In addition, SEMA may assign a State Applicant Liaison (liaison), to the
        subgrantee, who is responsible for ensuring that the subgrantee’s needs are met. Once
        the PAC and liaison have been assigned, the three parties schedule a “Kickoff
        Meeting,” where the subgrantee’s specific eligibility and documentation needs are
        discussed. After the “Kickoff Meeting” the PAC verifies the initial eligibility of the
        subgrantee and subsequently prepares the Project Worksheet (PW)2. FEMA will then
        review the PW, and if approved, they will obligate the necessary funds. The total costs
        of the projects are shared by FEMA and SEMA, with FEMA covering at least 75
        percent of the eligible costs. The remaining funds are paid by non-Federal sources, to
        include SEMA and/or local governments and agencies.


2
    Prior to the use of Project Worksheets, Disaster Survey Reports were used.
                                                    Soza & Company, Ltd.                                        6
FEMA                                                                    State Emergency Management Agency
                                                                                           State of Indiana

Title 44 CFR, provides that PA projects be classified as either “small” or “large3.” The
classification is based on a project threshold, which is adjusted annually to incorporate
changes in the Consumer Price Index4 for All Urban Consumers, as published by the U.S.
Department of Labor. For example, the threshold for 2001 is $50,6005; therefore projects
costing less than $50,600 are classified as “small,” whereas projects costing $50,600 or
more are considered “large” projects.
In order to prevent unnecessary delays, the Federal share of the costs for small projects are
disbursed soon after FEMA’s approval. However, for large projects, progress payments are
made to the subgrantees based on actual costs as documented. After a large project has
been completed, SEMA evaluates and reports the final cost to FEMA, who will then adjust
the amount of the large project to reflect the actual costs incurred.

Individual and Family Grants:
The Individual and Family Grant (IFG) program provides financial assistance to
individuals and families who have sustained damage or developed serious needs because of
a natural or man-made disaster. Subgrantees wishing to obtain assistance under this
program may be required to apply to the Small Business Administration (SBA) first for a
disaster loan. If the SBA determines that the subgrantee is not eligible for a SBA loan, SBA
will refer most subgrantees to the IFG program for consideration. In order to obtain
assistance through this grant, the Governor of the State must specifically express the intent
to implement this program. This expressed intent must include an estimate of the size and
cost of the program. SEMA is responsible for monitoring the IFG program and ensuring
that the program objectives and requirements are met. The total costs of the program are
shared by FEMA and SEMA, with FEMA covering 75 percent of the allowable costs. The
remaining funds are paid by non-Federal sources from funds made available by SEMA.

Hazard Mitigation Grants:
The Hazard Mitigation (HM) Grant program is awarded to States to help reduce the
potential damages from future disasters. SEMA must submit a letter of intent to participate
in the program, and subgrantees must submit a hazard mitigation grant proposal to SEMA.
Even though SEMA is responsible for setting the priorities for the selection of specific
projects, the final approval must come from FEMA. FEMA also awards grants to local
governments, eligible private non-profit organizations, Indian Tribes, and Alaska Native
Villages. The amount of assistance available under this program must not exceed 206
percent of the total assistance provided under the other assistance programs. The total costs
of the program are shared by FEMA and SEMA, with FEMA covering 75 percent of the
program costs. The remaining funds are paid by non-Federal sources.




3
  As per 44 CFR 206.203.
4
  From: www.bls.gov/opub/mpbls/oplc.pdf
5
  From: www.fema.gov/diz01/d1361n48.shtm
6
  Recent amendments to the Stafford Act, Section 322, increased this percentage from 15 to 20 percent.
                                                 Soza & Company, Ltd.                                         7
FEMA                                                         State Emergency Management Agency
                                                                                State of Indiana


Administrative Funds:
Under the PA and HM programs, FEMA may grant three types of administrative funds to
SEMA for overseeing the program.
Administrative Cost Allowance: Provided to SEMA to cover any extraordinary costs that
are directly associated with administering the program. This allowance amount is
determined by using a statutorily mandated sliding scale percentage7 that is applied to the
total amount of Federal assistance awarded under each program for each disaster. This
allowance is intended only for extraordinary costs; for example, costs incurred for
preparing Project Worksheets or final inspection reports, processing project applications,
conducting final audits and related field inspections, overtime, per diem, and travel
expenses. However, the administrative cost allowance does not include provisions for
regular time for employees.8
State Management Costs: Provided to cover only ordinary or regular expenses directly
associated with the program.9
Indirect Costs: Provided for activities indirectly associated with the program
administration.10
For the IFG program, up to five percent of the Federal share of total program costs may be
allocated for administrative costs.11

III.      Objectives, Scope, and Methodology

Objectives:

The FEMA – OIG engaged Soza & Company to determine if the Indiana State Emergency
Management Agency (SEMA):
   1. Administered the FEMA Disaster Assistance Grant Programs in accordance with
      the Stafford Act and appropriate Federal regulations;

       2. Properly accounted for and expended FEMA disaster assistance funds; and


       3. Submitted accurate financial expenditure reports for the Disaster Assistance Grant
          Programs.




7
  As per 44 CFR 206.228(a)(2)(i) and 206.439(b)(1)(i).
8
  As per 44 CFR 206.228(a)(2)(i) and 206.439(b)(1)(i).
9
  As per 44 CFR 206.228(a)(3) and 206.439(b)(2)(i).
10
   As per 44 CFR 206.228(b).
11 As per 44 CFR 206.131(a).
                                                Soza & Company, Ltd.                               8
FEMA                                            State Emergency Management Agency
                                                                   State of Indiana


Scope:

The scope of our audit included seven major disasters and one emergency declaration,
under which FEMA awarded 17 grants. These disasters were declared between June 4,
1990, and January 24, 2001.
The cut-off date for the audit was October 1, 2001. However, we also reviewed more
current activities related to the conditions found during our audit to determine whether
SEMA had taken appropriate corrective actions.

Methodology:

We conducted our audit in accordance with the FEMA Consolidated Audit Guide for
Grantee Audits of FEMA Disaster Programs provided by the Office of Inspector General
(OIG).

Our audit work included interviewing key FEMA officials and reviewing documents at the
FEMA Region V office in Chicago, Illinois to gain an understanding of the internal
controls in place as well as to determine current issues and concerns regarding the State of
Indiana’s administration and management of the disaster assistance programs.

The majority of the audit work was conducted at SEMA’s office in Indianapolis, Indiana.
We interviewed key SEMA officials and reviewed documents to gain an understanding of
SEMA’s organizational structure, internal control system, and policies and procedures that
were followed. We also reviewed representative samples of program files and supporting
documentation to determine if prescribed policies and procedures were budgeted,
controlled, and expended adequately and financial reports were prepared accurately and on
a timely basis.

As we progressed to the fieldwork phase of the audit, we adjusted our scope, depending on
the program being tested, in order to obtain reasonable coverage over each grant program.
The details of our methodology are documented in our audit workpapers and are tailored to
each individual situation. For each disaster selected, we reviewed the appropriate
documentation to determine whether the disaster assistance programs had been
implemented in accordance with the applicable regulations. Furthermore, we reviewed
SEMA’s current systems and procedures to identify any internal control weaknesses or
noncompliance situations. Where applicable, we have considered the views of FEMA
Region V and SEMA officials when writing this report.

We also reviewed prior audits performed within the time frame of the disasters included in
our audit scope, which included OMB Circulars No. A-128 and A-133 audit reports
performed by Indiana’s State Board of Accounts. FEMA Region V and SEMA officials
indicated that there were no FEMA – OIG audits performed on the State of Indiana within
the past 5 years. Our audit scope did not include interviews with or visits to SEMA’s
subgrantees or project sites; therefore we did not evaluate


                                 Soza & Company, Ltd.                                     9
FEMA                                             State Emergency Management Agency
                                                                    State of Indiana

 the technical procedures used in estimating and processing the repairs caused by disaster-
related damage.

The audit was conducted in accordance with Government Auditing Standards as prescribed
by the Comptroller General of the United States. We were not engaged to and did not
perform a financial statement audit, the objective of which would be to express an opinion
on specified elements, accounts, or items. Accordingly, we do not express an opinion on
the costs claimed for the disasters under the scope of the audit. If we had performed
additional procedures or conducted an audit of the financial statements in accordance with
generally accepted auditing standards, other matters might have come to our attention that
would have been reported. This report relates only to the accounts and items specified, and
does not extend to any financial statements of Indiana’s State Emergency Management
Agency or the State of Indiana.

IV.      Findings and Recommendations

The audit results are summarized in two major sections: Program Management and
Financial Management. These sections contain findings and related conclusions and
recommendations.
Based on the number and nature of our findings, we conclude that management controls
and financial controls should be improved to better protect assets and prevent errors and
fraud. In view of the nature and significance of the findings, we concluded that Indiana’s
State Emergency Management Agency (SEMA) did not comply, in all material respects,
with applicable laws and regulations relative to the findings.

A.       Program Management

      1. SEMA Did Not Complete Grant Award Activity or Submit the Final Reports in a
         Timely Manner

         SEMA did not complete the grant award activity or submit the final reports and
         vouchers to the Regional Director within the required timeframes. Specifically, the
         following was noted regarding the four disasters that included the Individual and
         Family Grant Program (Disaster Nos. 869, 1002, 1125, and 1165):

            •   SEMA did not complete the grant award activity, for any of the four
                disasters, within 180 days of the declaration date. Specifically, SEMA took
                between 223 and 704 days to complete the grant award activity for these
                four disasters.

            •   For two of the four disasters (Disaster Nos. 1002 and 1125), SEMA did not
                submit the final reports to the FEMA Regional Director within 90 days of
                the completion of all grant award activity. Specifically, the agency took 287
                and 690 days to submit the final reports to the FEMA Regional Director.



                                  Soza & Company, Ltd.                                    10
FEMA                                          State Emergency Management Agency
                                                                 State of Indiana


        •   The final closeout letter could not be located for Disaster Nos. 869 and
            1165. Therefore, we could not verify whether the final reports for these
            disasters were submitted.

  According to 44 CFR 206.131(j)(iii), “The State shall complete all grant award
  activity, including eligibility determinations, disbursement, and disposition of State
  level appeals, within 180 days following the declaration date. The Regional Director
  shall suspend all grant awards disbursed after the specified completion date….”

  Further, 44 CFR 206.131(j)(iv) also requires States to complete all administrative
  activities and submit final reports and vouchers to the Regional Director within 90
  days of the completion of all grant award activity.

  SEMA officials said that the delays occurred because they were administering
  multiple disasters concurrently with limited resources available. Therefore,
  fulfillment of the administrative requirements (e.g., completing grant award activity
  within the deadlines) under the program was delayed. SEMA management
  emphasized that, generally, if the State were administering only one disaster, it would
  have sufficient staffing to complete all requirements under the FEMA program.
  However, in instances where there is more than one disaster, SEMA does not have the
  staffing available to complete the administrative requirements.

  Delayed completion of grant award activity and submission of the final reports and
  vouchers impedes SEMA’s and FEMA Region V’s ability to effectively monitor and
  closeout the grant.

  Conclusions and Recommendations

  We recommend that SEMA implement procedures to:

 1. Ensure that it notifies the FEMA Regional Director, in writing, of delays in
    completing grant award activity, and
 2. Modify its staffing plan to ensure sufficient resources exist to manage grant activity,
    especially during times of multiple disasters.

  Management’s Response

  FEMA Region V and SEMA concur with this finding. Because of an amendment to
  the Stafford act under DMA 2000, the State of Indiana has chosen the “FEMA
  Option” for Individual and Household Program (IHP) administration of future IA
  declarations. Under the “FEMA Option,” all payments will be processed directly by
  FEMA and a bill for collection will be sent to the State for its cost share, thus,
  eliminating the need to submit final IFG financial reports to FEMA. However,



                               Soza & Company, Ltd.                                     11
FEMA                                          State Emergency Management Agency
                                                                 State of Indiana

   FEMA Region V will require SEMA to provide written justification for delays in
  completing all other grant award activities. Additionally, SEMA will also have to
  submit a staffing plan that ensures that there is adequate resources to manage multiple
  disasters.

  Auditor’s Additional Comment

  The actions described by management adequately address the condition cited for
  Recommendation 1; therefore, this recommendation is resolved and closed. However,
  to resolve Recommendation 2, FEMA Region V should provide a target date for
  completion of the staffing plan. The recommendation can be closed when FEMA
  Region V determines that the State’s staffing plan ensures adequate resources are
  available, when needed, to manage multiple disasters.

 2. SEMA’s Administrative Plans Referred to Outdated Legislation

  The 2001 Administrative Plans for the Individual and Family Grant and Hazard
  Mitigation contained outdated criteria. Specifically, these plans referred to
  compliance with Office of Management and Budget (OMB) Circular A-128, Audits of
  State and Local Governments. However, the Single Audit Act of 1984 was replaced
  by the Single Audit Act Amendments of 1996, and OMB Circular A-128 was
  superceded by OMB Circular A-133, Audits of State, Local Governments, and Non-
  Profit Organizations.

  According to 44 CFR 206, States are required to prepare Administrative Plans to
  ensure that grantees are prepared for future disasters, and that stated policies and
  procedures will effectively accomplish the intended goals of the grant. In addition,
  SEMA is required to comply with OMB Circular No. A-133.

  OMB Circular No. A-133 states, “This Circular is issued pursuant to the Single Audit
  Act of 1984, P.L. 98-502, and the Single Audit Act Amendments of 1996, P.L. 104-
  156. It sets forth standards for obtaining consistency and uniformity among Federal
  agencies for the audit of States, local governments, and non-profit organizations
  expending Federal awards.” The Circular further states, “Federal agencies shall apply
  the provisions of the sections of this Circular to non-Federal entities, whether they are
  recipients expending Federal awards received directly from Federal awarding
  agencies, or are subrecipients expending Federal awards received from a pass-through
  entity (a recipient or another subrecipient).”

  Under the requirements of OMB Circular No. A-133, single audits are required if
  subgrantees expend $300,000 or more in any given fiscal year. SEMA’s Hazard
  Mitigation Administrative Plan requires a single audit to be performed when
  subgrantees receive more than $100,000 in Federal funding each year; however,
  OMB Circular No. A-133 increased this threshold to $300,000 and refers to when an
  entity expends rather than receives Federal funds.


                              Soza & Company, Ltd.                                      12
FEMA                                        State Emergency Management Agency
                                                               State of Indiana

  SEMA management indicated that 44 CFR 14.2 (a) refers to OMB Circular No. A-
  128 rather than OMB Circular No. A-133. Although the 44 CFR 14.2 (a) of Title 44,
  CFR, does refer to OMB Circular No. A-128, it also states “including any
  amendments published in the FEDERAL REGISTER by OMB.” Therefore, SEMA
  should have considered and cited any amendments to OMB Circular A-128 (i.e.,
  OMB Circular A-133) when updating the disaster grant Administrative Plans.

  Applying outdated legislation and requiring a Single Audit for all entities receiving
  more than $100,000 of Federal funds places additional and perhaps unnecessary
  demands on SEMA’s resources. Also additional demands are being placed on its
  subgrantees that may not be warranted.

  Conclusions and Recommendations

  We recommend that SEMA update all Administrative Plans to reflect current
  reporting requirements, such as OMB Circular No. A-133, including modifying the
  dollar threshold for single audits and the terminology from “receive” to “expend”
  Federal funds.

  Management’s Response

  FEMA Region V and SEMA concur with this finding. SEMA assured FEMA Region
  V that Administrative Plans have been updated to reflect all reporting requirements.
  SEMA will submit Administrative Plans to the region for approval. Once the region
  receives these plans, they will either issue an approval letter or letter stating what
  corrective actions are necessary to approve the plan.

  Auditor’s Additional Comment

  The actions described by management adequately address the condition cited.
  However, to resolve the recommendation, FEMA Region V should provide a target
  date for the submission of the revised Administrative Plans. Further, the
  recommendation cannot be closed until FEMA Region V verifies that the State’s
  Administrative Plans comply with current reporting requirements.




                             Soza & Company, Ltd.                                    13
FEMA                                              State Emergency Management Agency
                                                                     State of Indiana


B.      Financial Management

     1. SEMA’s Financial Reporting of Program Status Was Not Properly Completed
        or Supported

        SEMA accounting records and reporting of program status were inaccurate or
        incomplete. Specifically, we noted the following:

           •   The Forms 20-10 for Disaster Nos. 869 and 1125 for Public Assistance and
               1165 for the Individual and Family Grant contained calculation errors and
               were not accurate. For example, the “Federal Share of Outlays” amount did
               not equal the “Net Outlays” less the “Recipient Share of Outlays.”
           •   There were two instances where the State’s share was included with the
               Federal share instead of being recorded separately on the Form 20-10.
           •   Although the amounts reported as Federal and State disbursements for
               Disaster No. 1125 on Form 20-10 agreed with the records maintained by the
               Public Assistance program director, the amounts did not agree with the
               accounting records maintained by the Fiscal Services Division.
           •   There were two Forms 20-10 that were incorrectly marked as “Final.” This
               designation should be used only when the disaster is closed and funds are no
               longer available for disbursement.

           •   The Schedule of Source and Application of Funds (see Attachment A)
               reflect a total Balance of Federal Funds on Hand for the Public Assistance,
               Individual and Family, and Hazard Mitigation Programs in the amount of
               $279,902. Given the issues identified above, SEMA was unable to
               determine the accuracy of the Balance of Federal Funds on Hand.

        According to 44 CFR 13.20(b)(1) and (2), “Accurate, current, and complete
        disclosure of the financial results of financially assisted activities must be made in
        accordance with the financial reporting requirements of the grant or
        subgrant…Grantees and subgrantees must maintain records which adequately
        identify the source and application of funds provided for financially-assisted
        activities. These records must contain information pertaining to grant or subgrant
        awards and authorizations, obligations, unobligated balances, assets, liabilities,
        outlays or expenditures, and income.”

        In addition, the State of Indiana Accounting Manual, page 1:5, states, “Controls
        over receipting, disbursing, recording, and accounting for the financial activities are
        necessary to avoid substantial risk of invalid transactions, inaccurate records and
        financial statements, and incorrect decision making.”




                                  Soza & Company, Ltd.                                      14
FEMA                                       State Emergency Management Agency
                                                              State of Indiana


   44 CFR 13.20(a)(7) requires that grantees receiving advances by electronic transfer
   make draw downs as close as possible to the time disbursements are made. FEMA
   Manual 2700.1, Advance Financing Payment Systems, states that grantees funded
   through SmartLink should have no more cash on hand than anticipated for 3 days.

   SEMA had not implemented a consistent method to report the status of its
   programs, such as the Form 20-10, Financial Status Report, and the Schedule of
   Source and Application of Funds. Formal written procedures on how to report the
   status of SEMA’s programs did not exist. SEMA management said that the
   combination of lack of procedures, along with the manual preparation of the Forms
   and Schedules, contributed to the errors mentioned above.

   Improper completion of the Form 20-10 and the Schedule of Source and
   Application of Funds reduces the accuracy and reliability of the information
   recorded on the form. Since these documents are used to determine the amount of
   funds that the State of Indiana disbursed, there is an increased risk that FEMA does
   not have sufficient assurance that SEMA disbursed FEMA grant funds in
   accordance with regulations.

   Conclusions and Recommendations

   We recommend that SEMA implement formal written procedures to ensure that:

       1. Forms 20-10, Financial Status Report, are accurate, current, complete, and
          supported by the agency’s accounting records.
       2. The status of program funds properly reflect the source and application of
          the funds for each disaster in order for SEMA to determine if excess Federal
          funds are on hand. If so, SEMA should return the excess cash to FEMA as
          soon as possible.

   Management’s Response

   FEMA Region V and SEMA concur with the first finding and recommendation.
   SEMA assures the region that they have new software that will correctly calculate
   and prepare FF 20-10. FEMA Region V will verify that the software will correct
   reporting deficiencies. Furthermore, the region will require SEMA to provide
   FEMA with a copy of the software and written procedures that substantiate the
   accuracy of the software and the methods that will be used to input financial
   information.

   Although SEMA disagrees with the finding that the Schedule of Source and
   Application of Federal Funds are not accurate or reliable, FEMA Region V will
   require SEMA to implement formal written procedures to ensure accuracy and
   consistency when completing this schedule. The Region’s response included
   updated Schedules of Source and Application of Federal Funds for three of the

                            Soza & Company, Ltd.                                    15
FEMA                                        State Emergency Management Agency
                                                               State of Indiana

    disasters in the audit scope (Nos. 1125, 165, and 1234). [These updated schedules
    are not included with Attachment B to this report (Region’s comments).

    Auditor’s Additional Comment

    The actions described by management adequately address the condition in regard to
    the preparation of FEMA Form 20-10 (Recommendation 1). However, to resolve
    this recommendation, FEMA Region V should provide a target completion date for
    the review of the software application and written procedures. Further, the
    recommendation cannot be closed until FEMA Region V verifies that the software
    application and written procedures will correct reporting deficiencies.

    The actions described above do not adequately address the condition cited for
    Recommendation 2. To resolve the recommendation, FEMA Region V should
    provide a target completion date for SEMA’s implementation of formal written
    procedures to ensure accuracy and consistency when completing Schedules of
    Source and Application of Funds. The recommendation can be closed when the
    Region verifies that the procedures are in place. Further, SEMA did not provide the
    Region with updated Schedules for Disaster Nos. 869 and 899. Therefore, the
    auditors could not determine the total balance of funds on hand; and, therefore,
    could not determine if there was excess cash that should be returned to FEMA.

 2. SEMA Did Not Track Management Grants and Administrative Allowances in
    Accordance with Applicable Regulations

    SEMA’s accounting records did not separately identify the amounts SEMA
    received in the form of management grants and administrative allowances for
    Hazard Mitigation Disaster Nos. 1165, 1217, and 1234 and Individual and Family
    Grant Disaster No. 1002. Therefore, SEMA was unable to support whether it had
    actually received funds under the management grants and administrative
    allowances, in accordance with FEMA regulations.

    Additionally, SEMA did not capture the actual costs charged against the
    management grants and administrative allowances for any of the Public Assistance
    Disasters selected for testing (Disaster Nos. 869, 899, 1125, 1165, 1217, 1234, and
    EM-3162). Therefore, SEMA could not support whether the administrative
    allowance was used for proper expenditures.

    SEMA did not have: (1) procedures in place to separately record amounts received
    as management grants and administrative allowances and (2) a mechanism to
    capture the amounts received and actual costs charged against the management
    grants and administrative allowances.

    In regard to the Public Assistance Grant, 44 CFR 206.228(a)(iii)(2) states, “Under
    section 406(f)(2) of the Stafford Act, we will pay you, the State, an allowance to


                             Soza & Company, Ltd.                                   16
FEMA                                        State Emergency Management Agency
                                                               State of Indiana

    cover the extraordinary costs that you incur to formulate Project Worksheets for
   small and large projects, to validate small projects, to prepare final inspection
   reports, project applications, final audits, and to make related field inspections by
   State employees. Eligible costs include overtime pay and per diem and travel
   expenses, but do not include regular time for your State employees.”

   In regard to the Hazard Mitigation Grant, 44 CFR 206.439(b)(1)(i) states, “Pursuant
   to 406(f)(2) of the Stafford Act, an allowance will be provided to the State to cover
   the extraordinary costs incurred by the State for preparation of applications,
   quarterly reports, final audits, and related field inspections by State employees,
   including overtime pay and per diem and travel expenses, but not including regular
   time for such employees.”

   In regard to the Individual and Family Grant program, 44 CFR 206.131(a) states,
   “The total Federal grant under this section will be equal to 75 percent of the actual
   cost of meeting necessary expenses or serious needs of individuals and families,
   plus State administrative expenses not to exceed 5 percent of the Federal grant….”

   Further, 44 CFR 13.20(a)(2) and (b)(6) require the tracing of grant funds to a level
   of expenditures adequate to establish that such funds have not been used in
   violation of applicable statutes and that accounting records are supported by such
   documentation as cancelled checks, paid bills, payrolls, and time and attendance
   records.

   In addition, SEMA management stated that the State’s statutory administrative
   allowance, which is based on a formula defined in 44 CFR 206, captures the
   estimated expenditures and is pre-approved by FEMA. As a result, SEMA
   management indicated that the level of effort and resources needed to track every
   administrative cost for the disaster outweighed the benefits received.

   By not having procedures and a mechanism in place to ensure that management
   grants and administrative allowances are properly recorded and monitored, there is
   a potential that these funds may be used for unallowable purposes or that the
   accounting records may be incomplete or misstated.

   Conclusions and Recommendations

   We recommend that SEMA implement procedures to ensure that management
   grants and administrative allowances are properly recorded and monitored on an
   individual disaster basis and that costs claimed are actual expenses supported by the
   accounting records.

   Management’s Response




                             Soza & Company, Ltd.                                    17
FEMA                                           State Emergency Management Agency
                                                                  State of Indiana


      FEMA Region V and SEMA concur with this finding and recommendation. SEMA
      has assured the regional office that expenditures and revenue for management
      grants and administrative allowances are now being identified by disaster number,
      in accordance with FEMA regulations and recommendations given by Soza &
      Company. The regional office will require SEMA to provide documentation that
      they are implementing these recommendations during a site visit that will be
      conducted this year.

      Auditor’s Additional Comment

      The actions described by management adequately address the conditions cited.
      However, to resolve the recommendation, FEMA Region V should provide a target
      completion date for the review. Further, the recommendation cannot be closed until
      FEMA Region V verifies the proper procedures are in place and effective.


 3.    SEMA Did Not Have Adequate Controls and Procedures Surrounding Assets

      During our testing of the protection of assets, separation of duties, and password
      security we identified the following conditions:

      Protecting Assets

      SEMA did not properly document the most recent physical asset verification.
      Specifically, 8 of the 19 assets purchased with FEMA-approved grant funds did not
      have the date identified as to when these assets were physically verified. Therefore,
      we were unable to determine if these eight assets were verified annually. In
      addition, the physical asset verifications were performed via phone calls and email
      messages instead of by actual physical verifications.

      According to 44 CFR 13.31(b), “A State will use, manage, and dispose of
      equipment acquired under a grant by the State in accordance with State laws and
      procedures.” The State of Indiana Accounting Manual, page 10:6 states, “Once a
      year, after receiving a Fixed Asset Master Listing, a physical inventory is to be
      taken and compared to the Master Listing and the agency’s listing of assets from
      their asset control system. The physical inventory helps ensure the asset inventory is
      accurate, helps ensure assets have not left the agency without authorization, and
      helps identify unused assets. Evidence that a physical inventory was taken should
      be maintained.”

      The State of Indiana Accounting Manual, page 1:5 states, “Each agency,
      department, institution, or office should have internal controls in effect which
      provide reasonable assurance regarding the reliability of financial information and
      records, effectiveness and efficiency of operations, proper execution of
      management’s objectives, and compliance with laws and regulations.          Among

                                Soza & Company, Ltd.                                     18
FEMA                                          State Emergency Management Agency
                                                                 State of Indiana

   other things, segregation of duties, safeguarding controls over cash and all other
   assets, and forms of information processing are part of an internal control system.”

   SEMA officials said that they properly performed the required asset verifications.
   However, they were unaware that verifications, as outlined in the State’s
   Accounting Manual, needed to be physically performed and documented.

   Improperly performing and documenting the physical verification of the assets
   prevents SEMA from ensuring that the assets exist and are in working condition. In
   addition, there is an increased risk that the assets may be subjected to misuse or
   fraud.

   Separation of Duties

   SEMA did not have adequate separation of duties in place for managing assets.
   Specifically, one individual was responsible for submitting asset additions and
   deletions to the Auditor of the State’s asset listing report, and reconciling this listing
   with the agency’s records.

   The State of Indiana Accounting Manual, page 1:5 states, “Each agency,
   department, institution, or office should have internal controls in effect which
   provide reasonable assurance regarding the reliability of financial information and
   records, effectiveness and efficiency of operations, proper execution of
   management’s objectives, and compliance with laws and regulations. Among other
   things, segregation of duties, safeguarding controls over cash and all other assets,
   and forms of information processing are part of an internal control system.”

   SEMA officials stated that according to its State Accounting Manual there is no
   requirement to separate these functions. Furthermore, SEMA officials stressed that
   they believed that they were following the State of Indiana’s requirements and
   noted that the State Board of Accounts had never cited SEMA for a lack of
   separation of duties.

   Separating the responsibility for submitting asset additions and deletions to the
   Auditor of the State’s asset listing report from reconciliation of the listing with the
   agency’s records provides an added control surrounding assets. This separation of
   duties helps prevent an individual from removing property from the accounting
   records without anyone aware of the removal. Another example of separation of
   duties is ensuring that the person who deposits cash is not the same individual
   reconciling the bank statements.

   Improper separation of duties increases the risk that the assets may be subject to
   misuse or fraud and not be detected in a timely manner.




                              Soza & Company, Ltd.                                        19
FEMA                                        State Emergency Management Agency
                                                               State of Indiana


   Password Security

   SEMA’s internal controls over access to the drawdown of funds were not adequate
   to ensure the proper identification of the individual processing the transaction.
   Specifically, all three users of the SMARTLINK system used the same password
   and username to access the system.

   The National Institute of Standards and Technology (NIST) prescribes standards for
   computer security of which password-based access control is a part.

   OMB Circular No. A-130, Management of Federal Information Resources,
   8(a)(1)(g) states, “Protect government information commensurate with the risk and
   magnitude of harm that could result from the loss, misuse, or unauthorized access to
   or modification of such information….”

   The State of Indiana Accounting Manual, page 1:5 states, “Each agency,
   department, institution, or office should have internal controls in effect which
   provide reasonable assurance regarding the reliability of financial information and
   records, effectiveness and efficiency of operations, proper execution of
   management’s objectives, and compliance with laws and regulations. Among other
   things, segregation of duties, safeguarding controls over cash and all other assets,
   and forms of information processing are part of an internal control system.”

   SEMA management stated that because the Assistant Controller verified the
   drawdowns of FEMA funds by periodically reviewing the SMARTLINK system,
   separate passwords were not necessary.

   There is an increased risk that if improper transactions occur, management may not
   be able to identify the individual responsible for the transaction in a timely manner.
   Separate logons for each user provide an audit trail to identify the individual who
   processed the transactions within the system. Individual passwords allow
   management to more readily determine when a transaction was processed and who
   processed it.

          Conclusions and Recommendations

   We recommend that SEMA:

       1. Implement procedures to ensure that all physical asset verifications include,
          at a minimum: the date the physical inventory was taken; the name of the
          individual(s) who performed the physical inventory; any differences and the
          reasons why differences exist; and evidence that a supervisory review was
          performed over the physical inventory verification.



                             Soza & Company, Ltd.                                     20
FEMA                                             State Emergency Management Agency
                                                                    State of Indiana

           2. Implement an internal control process to ensure the adequate separation of
              duties regarding the recording and reconciling of asset additions and
              deletions. In addition, this process should be documented in the State’s
              Accounting Manual.


           3. Implement an internal control process to ensure that all users of the
              SMARTLINK system are provided with individual usernames and
              passwords to access the system.

Management’s Response

FEMA Region V and SEMA concur with this finding and recommendations for one and
two. SEMA assures the region that the responsibility of performing physical asset
verification rests with an individual outside the fiscal office. In addition, this person will
work under the advisement of the aforementioned recommendations. Region V will verify
the accuracy of this when conducting a site visit with SEMA.

However, with respect to finding three, SEMA believes that this matter has been resolved
because in the presence of Soza & Co., SEMA contacted the Payment Management System
(PMS) and asked about the use of multiple users. PMS stated that multiple passwords were
unnecessary because Smartlink draws are wired to the State of Indiana and the probability
of misappropriation of funds is highly unlikely. SEMA assures Region V that Smartlink
draws are performed by the Assistant Controller and Controller. Both persons are located in
the same office and it is easy to verify who has made the draws. Region V tried to confirm
with PMS that multiple passwords were unnecessary. The region is waiting for a reply from
this agency. Once we are notified either way, we will ensure that the State complies with
PMS’ decision.

Auditor’s Additional Comments

With respect to the conditions concerning physical asset verifications and the separation of
duties (Recommendations 1 and 2), we consider the actions described by management to
adequately address the conditions cited. However, to resolve the recommendations, FEMA
Region V should provide a target completion date for its planned site visit with SEMA.
Further, the recommendation cannot be closed until FEMA Region V verifies the proper
procedures are in place and effective.

However, in response to the condition regarding access to the Smartlink system
(Recommendation 3), we agree that further clarification is necessary, and once a
determination is made by the Department of Treasury it should be implemented at the State
level. To resolve the recommendation, FEMA Region V should provide a target completion
date for ensuring the State complies with PMS’ decision. Further, the recommendation
cannot be closed until FEMA Region V verifies the proper procedures are in place and
effective.


                                  Soza & Company, Ltd.                                     21
         FEMA                                           State Emergency Management Agency
                                                                           State of Indiana

         Attachments

         Attachment A-1

         Soza & Company, Ltd. performed the procedures outlined in the Consolidated Audit
         Guide for Grantee Audits of FEMA Disaster Programs dated March 2001 related to the
         Source and Application of Funds Schedules shown below. The sufficiency of the
         procedures is the sole responsibility of the FEMA OIG. Consequently, we make no
         representation regarding the sufficiency of the procedures either for the purpose for
         which this report has been requested or for any other purpose.

         We were not engaged to, and did not perform, an audit of the Source and Application of
         Funds Schedules. The objective of an audit would be the expression of an opinion on
         specified elements, accounts, or items. Accordingly, we do not express such an opinion.
         Had we performed additional procedures, other matters might have come to our attention
         that would have been reported.
                          Summary Schedule of Source and Application of Funds
                             Indiana State Emergency Management Agency
                                  Disaster Assistance Grant Program
                                       As of September 30, 2001

All Disasters Numbers 869 through 1234, and Emergency Declaration Number 3162


                                       Public            Individual & Hazard
                                       Assistance        Family       Mitigation         Totals
Award Amounts
Federal Share                          $44,762,602       $2,405,886      $6,519,054      $53,687,542
Local Match/State Share                $2,731,574        $2,140,980      $907,163        $5,779,717
Total Award Amount                     $47,494,176       $4,546,866      $7,426,217      $59,467,259

Source of Funds
Federal Share                          $47,266,101       $3,827,401      $5,071,534      $56,165,036
Total Administrative Allowance         $1,568,725        $0              $190,764        $1,759,489
Local Match/State Share                $3,296,124        $2,140,980      $907,163        $6,344,267
Total Source of Funds                  $52,130,950       $5,968,381      $6,169,461      $64,268,792

Application of Funds
Federal Share                          $46,919,370       $3,815,708      $5,150,056      $55,885,134
Total Administrative Allowance         $1,480,811        $40,926         $262,774        $1,784,512
Local Match/State Share                $6,664,660        $1,124,038      $410,395        $8,199,093
Total Application of Funds             $55,064,841       $4,980,672      $5,823,226      $65,868,739

Balance of Federal Funds on Hand       $346,731          $11,693         ($78,522)       $279,902

                                         Soza & Company, Ltd.
          FEMA                                       State Emergency Management Agency
                                                                        State of Indiana



                                                                           Attachment A-2

                            Schedule of Source and Application of Funds
                           Indiana State Emergency Management Agency
                                Disaster Assistance Grant Program
                                     As of September 30, 2001

Disaster Number 869 - Declaration Date June 4, 1990 - Severe Storms, Flooding, and Tornadoes


                                      Public         Individual   & Hazard
                                      Assistance     Family         Mitigation      Totals
Award Amounts
Federal Share                         $3,091,806     $100,000        $410,020       $3,601,826
Local Match/State Share               $1,165,018     $1,087,264      $0             $2,252,282
Total Award Amount                    $4,256,824     $1,187,264      $410,020       $5,854,108

Source of Funds
Federal Share                         $6,895,828     $1,518,492      $384,615       $8,798,935
Total Administrative Allowance        $199,654       $0              $25,405        $225,059
Local Match/State Share               $1,729,568     $1,087,264      $0             $2,816,832
Total Source of Funds                 $8,825,050     $2,605,756      $410,020       $11,840,826

Application of Funds
Federal Share                         $6,816,622     $1,514,373      $384,615       $8,715,610
Total Administrative Allowance        $275,184       $0              $25,405        $300,589
Local Match/State Share               $2,199,515     $369,050        $0             $2,568,565
Total Application of Funds            $9,291,321     $1,883,423      $410,020       $11,584,764

Balance of Federal Funds on Hand      $79,206        $4,119          $0             $83,325




                                        Soza & Company, Ltd.
          FEMA                                      State Emergency Management Agency
                                                                       State of Indiana



                                                                          Attachment A-3

                            Schedule of Source and Application of Funds
                           Indiana State Emergency Management Agency
                                Disaster Assistance Grant Program
                                     As of September 30, 2001

Disaster Number 899 - Declaration Date March 29, 1991 - Severe Winter Storms


                                     Public          Individual & Hazard
                                     Assistance      Family       Mitigation      Totals
Award Amounts
Federal Share                        $19,353,326     $0             $1,663,964    $21,017,290
Local Match/State Share              $155,446        $0             $0            $155,446
Total Award Amount                   $19,508,772     $0             $1,663,964    $21,172,736

Source of Funds
Federal Share                        $18,818,855     $0             $1,643,647    $20,462,502
Total Administrative Allowance       $606,637        $0             $2,686        $609,323
Local Match/State Share              $155,446        $0             $0            $155,446
Total Source of Funds                $19,580,938     $0             $1,646,333    $21,227,271

Application of Funds
Federal Share                        $18,739,997     $0             $1,588,412    $20,328,409
Total Administrative Allowance       $474,513        $0             $79,750       $554,263
Local Match/State Share              $766,766        $0             $0            $766,766
Total Application of Funds           $19,981,276     $0             $1,668,162    $21,649,438

Balance of Federal Funds on Hand     $78,858         $0             $55,235       $134,093




                                       Soza & Company, Ltd.
          FEMA                                       State Emergency Management Agency
                                                                        State of Indiana


                                                                           Attachment A-4

                            Schedule of Source and Application of Funds
                           Indiana State Emergency Management Agency
                                Disaster Assistance Grant Program
                                     As of September 30, 2001

Disaster Number 1002 - Declaration Date September 9, 1993 - Severe Storms and Flooding


                                      Public          Individual   & Hazard
                                      Assistance      Family         Mitigation          Totals
Award Amounts
Federal Share                         $0              $640,805        $0                 $640,805
Local Match/State Share               $0              $253,715        $0                 $253,715
Total Award Amount                    $0              $894,520        $0                 $894,520

Source of Funds
Federal Share                         $0              $650,349        $0                 $650,349
Total Administrative Allowance        $0              $0              $0                 $0
Local Match/State Share               $0              $253,715        $0                 $253,715
Total Source of Funds                 $0              $904,064        $0                 $904,064

Application of Funds
Federal Share                         $0              $650,349        $0                 $650,349
Total Administrative Allowance        $0              $0              $0                 $0
Local Match/State Share               $0              $213,602        $0                 $213,602
Total Application of Funds            $0              $863,951        $0                 $863,951

Balance of Federal Funds on Hand      $0              $0              $0                 $0




                                       Soza & Company, Ltd.
          FEMA                                        State Emergency Management Agency
                                                                         State of Indiana


                                                                           Attachment A-5

                            Schedule of Source and Application of Funds
                           Indiana State Emergency Management Agency
                                Disaster Assistance Grant Program
                                     As of September 30, 2001

Disaster Number 1125 - Declaration Date July 3, 1996 - Severe Storms and Flooding


                                      Public          Individual   & Hazard
                                      Assistance      Family         Mitigation     Totals
Award Amounts
Federal Share                         $5,722,262      $324,276        $984,405      $7,030,943
Local Match/State Share               $129,009        $225,000        $0            $354,009
Total Award Amount                    $5,851,271      $549,276        $984,405      $7,384,952

Source of Funds
Federal Share                         $5,599,496      $311,755        $805,115      $6,716,366
Total Administrative Allowance        $166,309        $0              $46,271       $212,580
Local Match/State Share               $129,009        $225,000        $0            $354,009
Total Source of Funds                 $5,894,814      $536,755        $851,386      $7,282,955

Application of Funds
Federal Share                         $5,536,104      $310,181        $805,115      $6,651,400
Total Administrative Allowance        $170,434        $14,096         $46,271       $230,801
Local Match/State Share               $871,973        $103,394        $0            $975,367
Total Application of Funds            $6,578,511      $427,671        $851,386      $7,857,568

Balance of Federal Funds on Hand      $63,392         $1,574          $0            $64,966




                                        Soza & Company, Ltd.
          FEMA                                       State Emergency Management Agency
                                                                        State of Indiana


                                                                          Attachment A-6

                            Schedule of Source and Application of Funds
                           Indiana State Emergency Management Agency
                                Disaster Assistance Grant Program
                                     As of September 30, 2001

Disaster Number 1165 - Declaration Date March 6, 1997 - Severe Storms and Flooding


                                     Public          Individual   & Hazard
                                     Assistance      Family         Mitigation       Totals
Award Amounts
Federal Share                        $3,507,553      $1,340,805      $2,036,225      $6,884,583
Local Match/State Share              $640,563        $575,001        $672,788        $1,888,352
Total Award Amount                   $4,148,116      $1,915,806      $2,709,013      $8,772,935

Source of Funds
Federal Share                        $3,392,143      $1,346,805      $1,505,262      $6,244,210
Total Administrative Allowance       $115,410        $0              $116,402        $231,812
Local Match/State Share              $640,563        $575,001        $672,788        $1,888,352
Total Source of Funds                $4,148,116      $1,921,806      $2,294,452      $8,364,374

Application of Funds
Federal Share                        $3,343,206      $1,340,805      $1,639,019      $6,323,030
Total Administrative Allowance       $118,724        $26,830         $111,349        $256,903
Local Match/State Share              $1,470,319      $437,992        $375,580        $2,283,891
Total Application of Funds           $4,932,249      $1,805,627      $2,125,948      $8,863,824

Balance of Federal Funds on Hand     $48,937         $6,000          ($133,757)      ($78,820)




                                       Soza & Company, Ltd.
          FEMA                                      State Emergency Management Agency
                                                                       State of Indiana




                                                                            Attachment A-7

                            Schedule of Source and Application of Funds
                           Indiana State Emergency Management Agency
                                Disaster Assistance Grant Program
                                     As of September 30, 2001

Disaster Number 1217 - Declaration Date May 8, 1998 - Severe Winter Storm


                                     Public          Individual   & Hazard
                                     Assistance      Family         Mitigation       Totals
Award Amounts
Federal Share                        $4,479,849      $0              $647,492        $5,127,341
Local Match/State Share              $580,612        $0              $84,375         $664,987
Total Award Amount                   $5,060,461      $0              $731,867        $5,792,328

Source of Funds
Federal Share                        $4,276,476      $0              $390,359        $4,666,835
Total Administrative Allowance       $203,373        $0              $0              $203,373
Local Match/State Share              $580,612        $0              $84,375         $664,987
Total Source of Funds                $5,060,461      $0              $474,734        $5,535,195

Application of Funds
Federal Share                        $4,276,476      $0              $390,359        $4,666,835
Total Administrative Allowance       $148,127        $0              $0              $148,127
Local Match/State Share              $580,612        $0              $34,815         $615,427
Total Application of Funds           $5,005,215      $0              $425,174        $5,430,389

Balance of Federal Funds on Hand     $0              $0              $0              $0




                                       Soza & Company, Ltd.
          FEMA                                       State Emergency Management Agency
                                                                        State of Indiana




                                                                           Attachment A-8

                            Schedule of Source and Application of Funds
                           Indiana State Emergency Management Agency
                                Disaster Assistance Grant Program
                                     As of September 30, 2001

Disaster Number 1234 - Declaration Date July 22, 1998 - Severe Storms, Tornadoes, and Flooding


                                      Public          Individual   & Hazard
                                      Assistance      Family         Mitigation       Totals
Award Amounts
Federal Share                         $4,944,568      $0              $776,948        $5,721,516
Local Match/State Share               $13,765         $0              $150,000        $163,765
Total Award Amount                    $4,958,333      $0              $926,948        $5,885,281

Source of Funds
Federal Share                         $4,795,081      $0              $342,536        $5,137,617
Total Administrative Allowance        $149,487        $0              $0              $149,487
Local Match/State Share               $13,765         $0              $150,000        $163,765
Total Source of Funds                 $4,958,333      $0              $492,536        $5,450,869

Application of Funds
Federal Share                         $4,718,743      $0              $342,536        $5,061,279
Total Administrative Allowance        $165,974        $0              $0              $165,974
Local Match/State Share               $775,475        $0              $0              $775,475
Total Application of Funds            $5,660,192      $0              $342,536        $6,002,728

Balance of Federal Funds on Hand      $76,338         $0              $0              $76,338




                                        Soza & Company, Ltd.
          FEMA                                      State Emergency Management Agency
                                                                       State of Indiana




                                                                          Attachment A-9

                            Schedule of Source and Application of Funds
                           Indiana State Emergency Management Agency
                                Disaster Assistance Grant Program
                                     As of September 30, 2001

Emergency Number 3162 - Declaration Date January 24, 2001 - Snow Emergency


                                     Public          Individual   & Hazard
                                     Assistance      Family         Mitigation     Totals
Award Amounts
Federal Share                        $3,663,238      $0             $0             $3,663,238
Local Match/State Share              $47,161         $0             $0             $47,161
Total Award Amount                   $3,710,399      $0             $0             $3,710,399

Source of Funds
Federal Share                        $3,488,222      $0             $0             $3,488,222
Total Administrative Allowance       $127,855        $0             $0             $127,855
Local Match/State Share              $47,161         $0             $0             $47,161
Total Source of Funds                $3,663,238      $0             $0             $3,663,238

Application of Funds
Federal Share                        $3,488,222      $0             $0             $3,488,222
Total Administrative Allowance       $127,855        $0             $0             $127,855
Local Match/State Share              $0              $0             $0             $0
Total Application of Funds           $3,616,077      $0             $0             $3,616,077

Balance of Federal Funds on Hand     $0              $0             $0             $0




                                       Soza & Company, Ltd.
Attachment B
